No. 21-144
In the

Supreme Court of the United States
__________________
SEATTLE’S UNION GOSPEL MISSION,
Petitioner,
v.
MATTHEW S. WOODS,
__________________

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Washington

__________________

BRIEF OF AMICUS CURIAE FIRST LIBERTY
INSTITUTE IN SUPPORT OF PETITIONER
__________________
KELLY J. SHACKELFORD
Counsel of Record
JEFFREY C. MATEER
DAVID J. HACKER
STEPHANIE N. TAUB
KEISHA T. RUSSELL
FIRST LIBERTY INSTITUTE
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae
September 2, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Opinion Below Rests Entirely on an
Erroneous Reading of this Court’s Ministerial
Exception Cases. . . . . . . . . . . . . . . . . . . . . . . . 3
A. The Washington court erred by
construing the ministerial exception as a
ceiling, looking only to the ministerial
exception to decide whether reasonable
grounds supported the statutory
exemption for religious nonprofits . . . . . . 5
B. The Washington court erred by
construing the ministerial exception as a
floor, ignoring all other potential
constitutional defenses – including the
First Amendment right to religious
autonomy . . . . . . . . . . . . . . . . . . . . . . . . . . 8

II.

The Religious Autonomy Doctrine Extends
Beyond the Ministerial Exception to Protect
the Independence of Religious Organizations
Like SUGM . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
A. The Religion Clauses demand application
of the religious autonomy doctrine, which
broadly precludes the government from
interfering in matters of church
governance . . . . . . . . . . . . . . . . . . . . . . . . 11
B. Smith does not impact the application of
the church autonomy doctrine . . . . . . . . . 13
III.

The Court Should Grant the Petition to
Ensure that Lower Courts Properly Consider
the Religious Autonomy Doctrine . . . . . . . . . 15

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

iii
TABLE OF AUTHORITIES
CASES
Bryce v. Episcopal Church in the Diocese of
Colorado, 289 F.3d 648 (10th Cir. 2002) . . . . . . 11
Corp. of Presiding Bishop of Church of Jesus
Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987). . . . . . . . . . . . . . . . . . . passim
Employment Div., Dept. of Human Resources of
Oregon v. Smith,
494 U.S. 872 (1990). . . . . . . . . . . . . . 10, 11, 13, 14
Hall v. Baptist Memorial Health Care Corp.,
215 F.3d 618 (6th Cir. 2000). . . . . . . . . . . . . . . . 13
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. EEOC,
565 U.S. 171 (2012). . . . . . . . . . . . . . . . . . 9, 11, 14
Kedroff v. Saint Nicholas Cathedral,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . . 12, 14
Killinger v. Samford Univ.,
113 F.3d 196 (11th Cir. 1997). . . . . . . . . . . . . . . 15
Little v. Wuerl,
929 F.2d 944 (3d Cir. 1991) . . . . . . . . . . . . . . . . 15
N.L.R.B. v. Cath. Bishop of Chicago,
440 U.S. 490 (1979). . . . . . . . . . . . . . . . . . . . . 9, 12
Ockletree v. Franciscan Health Sys.,
317 P.3d 1009 (Wash. 2014) . . . . . . . . . . . . . . . 6, 8

iv
Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S. Ct. 2049 (2020). . . . . . . . . . . . . . . . 9, 11, 12
Presbyterian Church in U.S. v. Mary Elizabeth
Blue Hull Mem’l Presbyterian Church,
393 U.S. 440 (1969). . . . . . . . . . . . . . . . . . . . . . . . .
Serbian Eastern Orthodox Diocese v. Milivojevich,
426 U.S. 696 (1976). . . . . . . . . . . . . . . . . . . . 12, 14
Woods v. Seattle’s Union Gospel Mission,
481 P.3d 1060 (Wash. 2021) . . . . . . . . . . . . passim
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 2000e-1(a) . . . . . . . . . . . . . . . . . . . . . . . 15
42 U.S.C. § 2000-2(e)(1) . . . . . . . . . . . . . . . . . . . . . . 15
42 U.S.C. § 2000e(j) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Wash. Rev. Code Ann. § 49.60.040(11) . . . . . . . . . 5, 7
OTHER AUTHORITIES
Douglas Laycock, Towards a General Theory of the
Religion Clauses: The Case of Church Labor
Relations and the Right to Church Autonomy, 81
COLUM. L. REV. 1373 (1981) . . . . . . . . . . . . . . . . 12
Michael W. McConnell & Luke W. Goodrich, On
Resolving Church Property Disputes, 58 ARIZ. L.
REV. 307 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 13

1
INTEREST OF AMICUS CURIAE
First Liberty Institute is a nonprofit, public interest
law firm dedicated to defending religious liberty for all
Americans.1 First Liberty provides pro bono legal
representation to individuals and institutions of all
faiths — Catholic, Jewish, Muslim, Native American,
Protestant, the Falun Gong, and others.
As an amicus, First Liberty maintains an interest in
preserving the freedom of all faith traditions to further
their religious missions. The religious organizations we
represent seek the freedom to operate in communities
that share a common commitment to their religious
beliefs and principles, independent of government
control and intervention. One of the core features of the
First Amendment is that the government must respect
the autonomy of religious organizations. By ignoring
every religious autonomy issue except for the
ministerial exception, the opinion below threatens to
severely curtail religious liberty throughout the state
of Washington.

1

Attorneys from First Liberty Institute authored this brief as
amicus curiae. No attorney for any party authored any part of this
brief, and no one apart from amicus curiae made any financial
contribution toward the preparation or submission of this brief.
The parties were timely notified and consented in writing to the
filing of this brief.

2
SUMMARY OF ARGUMENT
The Washington Supreme Court erred in concluding
that the only First Amendment doctrine that could
protect the employment decisions of the Seattle’s Union
Gospel Mission (“SUGM”) was the ministerial
exception. The court ignored all other First
Amendment issues that could arise when the state
threatens the ability of religious nonprofit
organizations, including churches, synagogues, and
mosques, to hire employees who share the
organizations’ religious beliefs. Most importantly, the
court ignored the First Amendment’s guarantee of
religious autonomy and independence from government
entanglement. The religious autonomy doctrine, rooted
in both Religion Clauses, protects the right of churches
and other religious organizations to decide for
themselves matters of faith, doctrine, and governance.
It prohibits state and federal governments from
intruding into the internal operations of religious
institutions or dictating how they must carry out their
missions.
Because of the statutory religious exemption to Title
VII, which allows religious organizations to make
employment decisions based upon their religious
beliefs, courts have rarely needed to address the issue
of whether states can lawfully require religious
organizations to make employment decisions that
violate or conflict with their religious tenets. Under the
opinion below, however, the state may require a church
to hire someone opposed to its religious mission, and
such a mandate would raise no federal constitutional
concerns if the position at issue is non-ministerial. This

3
is an exceptionally broad holding that invades the
autonomy of religious organizations of all faiths in the
state.
The ministerial exception is an important doctrine
protecting churches from state interference, but it is
not the only protection the Religion Clauses afford
religious organizations. At the very least, the
conclusion that the state’s religious nonprofit
exemption violates the state’s constitution when
applied to claims that invoke the right to “a sexual
orientation” raises significant issues about excessive
government entanglement and religious autonomy that
this Court should consider.
The opinion below misread this Court’s cases to
erroneously conclude that the ministerial exception
was the only federal constitutional doctrine available to
protect SUGM. Only this Court can step in to correct
the error and ensure that states abide by the First
Amendment’s vigorous protection of religious liberty.
ARGUMENT
I.

The Opinion Below Rests Entirely on an
Erroneous Reading of this Court’s
Ministerial Exception Cases.

This case presented the highest court in
Washington with a state law question that largely
parallels the federal law question at issue in the
Supreme Court’s Amos decision. Corp. of Presiding
Bishop of Church of Jesus Christ of Latter-day Saints
v. Amos, 483 U.S. 327 (1987). In Amos, this Court
considered whether the statutory religious employer
exemption to federal employment discrimination law

4
violated the federal Constitution. Id. at 330. Here, the
state court was asked whether a statute that exempts
religious nonprofit employers from the state’s
employment discrimination laws violates the state’s
constitution.2 Woods v. Seattle’s Union Gospel Mission,
481 P.3d 1060 (Wash. 2021).
The majority opinion below began its analysis using
a state law framework for evaluating the
constitutionality of the exemption and then abruptly
changed course during its “as applied” analysis. Id. at
1067. At that point, the opinion locked onto this Court’s
First Amendment ministerial exception cases and drew
two false conclusions from those cases that only this
Court can correct. Id. at 1067–70.
The state court’s opinion effectively concluded that
the ministerial exception represents both a ceiling and
a floor to religious liberty protections available in the
state. First, the court erroneously assumed that the
ministerial exception rationale could provide the only
reasonable grounds for exempting religious non-profit
employers from the state’s employment law. See id. at
1067. Second, the court erroneously assumed that the
ministerial exception was the only constitutional
doctrine that could protect a religious organization
from a lawsuit like this one. See id. at 1067–70.

2

The cases do have notable differences. For instance, Amos
primarily concerned an Establishment Clause challenge. 483 U.S.
at 330. Here, the state constitution’s privileges and immunities
clause is at issue. Woods, 481 P.3d at 1065. Still, both cases
concern the lawfulness of statutes exempting religious employers
from certain employment laws.

5
A. The Washington court erred by
construing the ministerial exception as
a ceiling, looking only to the ministerial
exception to decide whether reasonable
grounds supported the statutory
exemption for religious nonprofits.
Washington state’s employment discrimination
statute expressly states that it does not apply to
religious nonprofits. Wash. Rev. Code Ann.
§ 49.60.040(11). In the trial court, the plaintiff brought
a facial and an as applied challenge to the statute,
arguing that the religious nonprofit exemption violated
the privileges and immunities clause of the state
constitution. The court framed the state law question
as follows: “We apply a two-pronged test to determine
the constitutionality of the religious employer
exemption under our article I, section 12: (1) whether
RCW 49.60.040(11) granted a privilege or immunity
implicating a fundamental right and (2) if a privilege or
immunity was granted, whether the distinction was
based on reasonable grounds.” Woods, 481 P.3d at
1065.
When the state court considered the “facial”
challenge to the religious nonprofit exception, the court
appropriately concluded that “reasonable grounds exist
for WLAD [Washington’s Law Against Discrimination]
to distinguish religious and secular nonprofits.” Id. at
1066. It listed three reasons for this conclusion. First,
the religious nonprofit exemption’s “inclusion in the
enacting legislation and its continued existence
demonstrate that the legislature plainly intended to
include the exemption in WLAD.” Id. at 1067. Second,

6
the distinction furthers the “state’s protection of
religion” and religious organizations’ “right to religious
liberty” under the state’s constitution. Id. Third, the
exemption serves the important function of “avoid[ing]
state interference with religion.” Id.
On this point, the majority opinion relied on a
previous Washington Supreme Court case in which five
justices agreed that “article I, section 11 [of the state’s
constitution] and avoidance of state interference with
religion constitute real and substantial differences
between religious and secular nonprofits, making it
‘reasonable for the legislature to treat them differently
under WLAD.’” Id. (quoting Ockletree v. Franciscan
Health Sys., 317 P.3d 1009, 1017 (Wash. 2014)
(plurality)). The lead Ockletree opinion expressly
adopted the reasoning of Amos. 317 P.3d at 1017–18. It
explained that the U.S. Supreme Court “recognized
that exemptions for religious organizations from civil
discrimination suits protect religious freedom by
avoiding state interference with religious autonomy
and practice” and “upheld the exemption on the basis
that it ‘is rationally related to the legitimate purpose of
alleviating significant governmental interference with
the ability of religious organizations to define and carry
out their religious missions.’ . . . We agree with this
reasoning.” Id. (citing Amos, 483 U.S. at 336, 339).
Yet, when the Woods court approached the same
question for the as applied challenge, it did not
consider whether any of these reasons could support
reasonable grounds as applied to this case. The court’s
opinion instead considered only one factor – whether
the ministerial exception doctrine applies. No

7
explanation is given for ignoring all other
considerations. The majority simply writes: “To
determine whether reasonable grounds exist to support
a constitutional application of RCW 49.60.040(11)(a)’s
exemption in this case, we look to the ministerial
exception outlined by the United States Supreme
Court.”3 Woods, 481 P.3d at 1067. Thus, the court’s
opinion assumes that the ministerial exception
rationale can provide the only possible “reasonable
grounds” to justify the religious nonprofit exemption as
applied, despite acknowledging at least three other
possibilities just a few paragraphs earlier.
Justice Stephens’ opinion concurring in part and
dissenting in part criticizes the logic of the majority
opinion on this point.4 “The majority errs by instead
aligning the statutory exemption with the ministerial
exception developed under First Amendment doctrine.”
Id. at 1079 (Stephens, J., dissenting in part). Justice
Stephens points out that this Court’s ministerial
exception jurisprudence presents an entirely different
question from “whether the Washington legislature
articulated reasonable grounds for granting religious
employers a categorical privilege in RCW
49.60.040(11).” Id. at 1079-80 (Stephens, J., dissenting
in part).

3

See also Woods, 481 P.3d at 1067 (“Because WLAD contains no
limitations on the scope of the exemption provided to religious
organizations, we seek guidance from the First Amendment as to
the appropriate parameters of the provision’s application.”).

4

Amicus disagrees with Justice Stephens’ conclusions, but he does
appropriately note some logical flaws in the majority’s opinion.

8
The court erred by concluding that the ministerial
exception doctrine could provide the only reasonable
grounds for the statutory exception, and ignoring state
and federal religious liberty grounds such as those
raised in Ockletree and Amos. Ockletree, 317 P.3d at
1017-18; Amos, 483 U.S. at 336, 339. The lower court
compounded this error by its misreading of the
ministerial exception, which resulted in the court
improperly taking other available federal constitutional
defenses off the table.
B. The Washington court erred by
construing the ministerial exception as
a floor, ignoring all other potential
constitutional defenses – including the
First Amendment right to religious
autonomy.
The opinion again and again erroneously assumes
that the only federal constitutional defense that could
be available to SUGM, or other religious nonprofits, is
the ministerial exception. See, e.g., Woods, 481 P.3d at
1062 (“In enacting WLAD, the legislature created a
statutory right for employees to be free from
discrimination in the workplace while allowing
employers to retain their constitutional right, as
constrained by state and federal case law, to choose
workers who reflect the employers’ beliefs when hiring
ministers.”) (emphasis added). The opinion repeatedly
assumes the ministerial exception is the only
constitutional right supporting SUGM when
addressing “competing rights.” Id. at 1070. (“To
properly balance the competing rights advanced by
Woods and SUGM, we apply the federal ministerial

9
exception test established in Hosanna-Tabor and
clarified in Our Lady of Guadalupe.”); id. at 1069
(“Recognizing the need for a careful balance between
the religious freedoms of the sectarian organization
and the rights of individuals to be free from
discrimination in employment, the Supreme Court has
fashioned the ministerial exception to the application
of antidiscrimination laws in accord with the
requirements of the First Amendment.”).
Of course, this Court has never held that the
ministerial exception is the only protection available
for religious nonprofits faced with employment law
claims. The ministerial exception itself arises from the
broader principle of religious autonomy, the guarantee
of independence in matters of faith, doctrine, and
governance that is rooted in both religion clauses of the
First Amendment. Our Lady of Guadalupe Sch. v.
Morrissey-Berru, 140 S. Ct. 2049, 2060-61 (2020). The
government can unconstitutionally violate religious
liberty rights in other ways beyond intrusion into the
church-minister relationship. See, e.g., N.L.R.B. v.
Cath. Bishop of Chicago, 440 U.S. 490, 502 (1979). But
the majority opinion below ignores the possibility that
SUGM could raise other federal constitutional
defenses.5
5

The dissent acknowledges that there could be other constitutional
defenses raised beyond the ministerial exception, pointing to other
potential Free Exercise claims. “A remaining question is whether
SUGM should also be able to pursue other defenses grounded in
claims of religious freedoms.” Woods, 481 P.3d at 1081 (Stephens,
J., dissenting in part). Amicus disagrees as to the dissent’s
ultimate conclusion on these issues, but he again points out a
logical flaw in the majority’s reasoning.

10
Consequently, the majority opinion remanded the
case only for consideration of whether the ministerial
exception applies. “Accordingly, we reverse and remand
the case to the trial court to determine whether SUGM
meets the ministerial exception.” Woods, 481 P.3d at
1070. By doing so, the court functionally instructed the
lower court on remand to ignore all other constitutional
defenses available to SUGM. The opinion therefore
threatens SUGM’s ability to assert its First
Amendment right to religious autonomy or its right to
be free from excessive government entanglement in its
internal affairs. The application of these constitutional
defenses are key issues that SUGM is entitled to
litigate if the statutory defense is no longer available.
A state supreme court has no right to take it off the
table and prematurely remove SUGM’s right to invoke
it. This Court should grant the petition to correct the
erroneous misunderstanding of federal law that the
ministerial exception is the only First Amendment
doctrine that could protect religious employers.
II.

The Religious Autonomy Doctrine Extends
Beyond the Ministerial Exception to
Protect the Independence of Religious
Organizations Like SUGM.

By assuming that the ministerial exception was the
only constitutional defense SUGM could invoke, the
Washington Supreme Court ignored a long line of
federal cases highlighting the importance of the
religious autonomy doctrine. Perhaps the majority
opinion, like the dissenting opinion, prematurely
dismissed all other constitutional defenses on the false
assumption that Smith would preclude their

11
applicability. See Employment Div., Dept. of Human
Resources of Oregon v. Smith, 494 U.S. 872 (1990).
However, just as Smith is not applicable to the
ministerial exception, it also is not applicable to its
parent doctrine, religious autonomy.
A. The
Religion
Clauses
demand
application of the religious autonomy
doctrine, which broadly precludes the
government from interfering in matters
of church governance.
In Hosanna-Tabor, this Court stated unanimously
that the ministerial exception was rooted in both
Religion Clauses of the First Amendment. HosannaTabor Evangelical Lutheran Church & Sch. v. EEOC,
565 U.S. 171, 184 (2012) (“The Establishment Clause
prevents the government from appointing ministers,
and the Free Exercise Clause prevents it from
interfering with the freedom of religious groups to
select their own.”). In Our Lady of Guadalupe, the
Court explained that the ministerial exception is an
arm of the broader religious autonomy doctrine. 140
S. Ct. at 2060 (“The constitutional foundation for our
holding [in Hosanna-Tabor] was the general principle
of church autonomy to which we have already referred:
independence in matters of faith and doctrine and in
closely linked matters of internal government.”); see
also Bryce v. Episcopal Church in the Diocese of
Colorado, 289 F.3d 648, 655 (10th Cir. 2002))
(concluding that church autonomy doctrine is based on
the Religion Clauses and rooted in a “long line of
Supreme Court cases”). The ministerial exception is
just “one component” of religious autonomy. Our Lady

12
of Guadalupe, 140 S. Ct. at 2060. It is precisely because
religious organizations have freedom over matters of
faith and doctrine that they must have the ability to
freely select the ministers who disseminate that faith
and doctrine. Id.; see also Amos, 483 U.S. at 341 (1987)
(Brennan, J., concurring) (writing “religious
organizations have an interest in autonomy in ordering
their internal affairs, so that they may be free to:
‘select their own leaders, define their own doctrines,
resolve their own disputes, and run their own
institutions.’”) (quoting Douglas Laycock, Towards a
General Theory of the Religion Clauses: The Case of
Church Labor Relations and the Right to Church
Autonomy, 81 COLUM. L. REV. 1373, 1389 (1981)). Thus,
the ministerial exception flows out of broader religious
autonomy principles that prevent state interference.
Such improper state interference can sometimes
arise from the mere process of judicial scrutiny into
religious decisions. See N.L.R.B. v. Catholic Bishop of
Chi., 440 U.S. 490, 502 (1979) (“It is not only the
conclusions that may be reached by [the government]
which may impinge on rights guaranteed by the
Religion Clauses, but also the very process of inquiry
leading to findings and conclusions.”); Amos, 483 U.S.
at 343 (concluding that courts should grant deference
to religious organizations to ensure that government
intrusion does not “chill” free exercise activity); Serbian
Eastern Orthodox Diocese v. Milivojevich, 426 U.S. 696
(1976) (church has authority to resolve internal
governance disputes); Kedroff v. Saint Nicholas
Cathedral, 344 U.S. 94 (1952) (state action attempting
to transfer church authority to another violates Free
Exercise Clause).

13
This Court’s religious autonomy decisions
“constitutionalized two related principles: first, that
civil courts should not decide ecclesiastical questions;
and second, that churches have a First Amendment
right to be free from state interference in their internal
affairs.” Michael W. McConnell & Luke W. Goodrich,
On Resolving Church Property Disputes, 58 ARIZ. L.
REV. 307, 316 (2016); see also Amos, 483 U.S. at 345–46
(Brennan, J., concurring) (“Concern for the autonomy
of religious organizations demands that we avoid the
entanglement and the chill on religious expression that
a case-by-case determination would produce. We
cannot escape the fact that these aims are in tension.”);
Hall v. Baptist Memorial Health Care Corp., 215 F.3d
618, 626 (6th Cir. 2000) (“[T]he First Amendment does
not permit federal courts to dictate to religious
institutions how to carry out their religious missions or
how to enforce their religious practices.”).
The religious autonomy doctrine grants broad
protections to religious organizations like SUGM to
make internal decisions about its faith, doctrine, and
governance without government interference. Yet, the
Washington Supreme Court would overlook
government infringements into faith and doctrine, as
long as the minister-church relationship was not
impaired.
B. Smith does not impact the application of
the church autonomy doctrine.
Contrary to the dissent’s implications, Smith does
not limit religious autonomy protections. Woods, 481
P.3d at 1081 (Stephens, J., dissenting in part) (“WLAD
is a neutral law of general applicability that survives

14
constitutional scrutiny. Courts may apply WLAD to a
religious employers’ alleged employment discrimination
except in the narrow context of ministerial
employment.”) Religious autonomy protections, such as
the ministerial exception, are required exceptions to
otherwise generally applicable rules. In Smith, the
Court abandoned its previous practice of applying strict
scrutiny to neutral government laws of general
applicability that burdened religious practice. 494 U.S.
at 879. However, the Court never suggested that
abandoning the strict scrutiny standard in Smith
impacted its church autonomy precedents. Rather, the
Court cited Presbyterian Church in U.S. v. Mary
Elizabeth Blue Hull Mem’l Presbyterian Church, 393
U.S. 440 (1969), Kedroff, and Milivojevich to affirm the
rule that “[t]he government may not … lend its power
to one or the other side in controversies over religious
authority or dogma.” Id. at 877.
Moreover, the Court outright rejected the argument
that its decision in Smith “precludes recognition of a
ministerial exception.” Hosanna-Tabor, 565 U.S. at 190
(reasoning that even though the federal law at issue “is
a valid and neutral law of general applicability,” it did
not overcome the school’s religious autonomy rights).
The Court distinguished between “government
regulation of only outward physical acts” and
“government interference with an internal church
decision that affects the faith and mission of the church
itself.” Id. at 171. Because the ministerial exception
flows out of the church autonomy doctrine, neither are
limited by Smith and therefore both can be raised by
SUGM.

15
III.

The Court Should Grant the Petition to
Ensure that Lower Courts Properly
Consider the Religious Autonomy Doctrine.

The Washington Supreme Court may have
misinterpreted this Court’s recent focus on the
ministerial exception as an instruction that the
ministerial exception is the only constitutional doctrine
applicable to employment law claims against religious
organizations. What the state court failed to
understand is that most employment discrimination
claims arise under Title VII or a similar state analogue
with an exception allowing religious organizations to
make employment decisions based upon their religious
beliefs. See 42 U.S.C. §§ 2000e-1(a), 2000–2(e)(1).6 The
existence of Title VII’s statutory religious exemption
has reduced the need for federal courts to address
constitutional conflicts that arise when the government
pressures religious organizations to make employment
decisions that violate or conflict with their religious

6

See Little v. Wuerl, 929 F.2d 944, 951 (3d Cir. 1991) (“Congress
intended the explicit exemptions to Title VII to enable religious
organizations to create and maintain communities composed solely
of individuals faithful to their doctrinal practices”). Because the
exemption provides that religious employers may consider
“religion” and Title VII defines “religion” broadly to include “all
aspects of religious observance and practice, as well as belief,” 42
U.S.C. § 2000e(j), therefore, religious organizations may choose to
“employ only persons whose beliefs and conduct are consistent
with the employer’s religious precepts.” Little, 929 F.2d 944 at
951; see also Killinger v. Samford Univ., 113 F.3d 196, 198-200
(11th Cir. 1997).

16
tenets.7 The Washington Supreme Court’s opinion,
however, allows the state to compel a church to hire
someone opposed to its religious beliefs or mission. The
opinion held that the religious nonprofit exemption was
unconstitutional at least as applied to the plaintiff’s
claim of sexual orientation discrimination, noting that
there may be circumstances in which the religious
nonprofit exemption is still constitutional. Woods, 481
P.3d at 1065 n.2.
This is a strange outcome. The purpose of
exempting religious nonprofits is either to allow
religious organizations to work alongside others who
share the same set of religious beliefs (co-religionists)
or to prevent unconstitutional government
encroachment into the internal operations of religious
organizations or both. Yet the opinion undercuts both
rationales. It threatens religious nonprofits’ ability to
work with co-religionists when it comes to issues of
sexual morality – issues in which many faiths hold
strong views. According to the opinion below, however,
not only can the state meddle in the internal operations
of religious organizations, including churches,
synagogues, and mosques, regarding standards of
moral conduct for employees, but such government
interference with the internal operations of religious
nonprofit organizations would raise no federal
constitutional concerns as long as the position at issue
is non-ministerial. This is an exceptionally broad

7

See Amos, 483 U.S. at 339 (concluding “the statute effectuates a
more complete separation of the two [church and state] and avoids
the kind of intrusive inquiry into religious belief that the District
Court engaged in in this case”).

17
holding that has the potential to invade the autonomy
of religious organizations of many faiths across the
state.8
As government continues to expand its reach into
all aspects of society, and many state and local
governments seek to intrude ever more into the
internal operations of religious organizations, the
religious autonomy issues will only increase. Lower
courts need guidance. Without clarity on these issues,
state courts and legislatures will continue to
misunderstand their constitutional duty to protect the
freedom of religious organizations – narrowing it only
to the right to choose ministers.
The Court should take this opportunity to explain
that its focus on the ministerial exception does not
mean that the ministerial exception is the only
constitutional constraint on state regulation of
religious organization’s employment decisions. Only
this Court can ensure that First Amendment religious
autonomy principles are applied by lower courts.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari or grant, vacate, and
remand to consider issues of religious autonomy and
other available constitutional defenses.
8

The majority itself acknowledges the breadth of religious
nonprofits that could be impacted: “universities, elementary
schools, and houses of worship. . . Catholic Community Services,
Jewish Family Services, CRISTA Ministries, YMCA, YWCA,
Salvation Army, and St. Vincent De Paul, as well as churches,
synagogues, and mosques.” Woods, 481 P.3d 1065 n.2.

18
Respectfully submitted,
Kelly J. Shackelford
Counsel of Record
Jeffrey C. Mateer
David J. Hacker
Stephanie N. Taub
Keisha T. Russell
First Liberty Institute
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae
September 2, 2021

